                                                    U.S. Department of Justice


                                                    United States Attorney
                                                    District of Maryland


Rod J. Rosenstein                                   36 South Charles Street                       410-209-4800
United States Attorney                              4th Floor                            TTY/TDD:410-962-4462
                                                    Baltimore, Maryland 21201                     410-209-4885
Vickie E. LeDuc                                                                               FAX 410-962-3091
Public Information Officer                                                              Vickie.LeDuc@usdoj.gov


February 15, 2012
FOR IMMEDIATE RELEASE                        CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                      MARCIA MURPHY at (410) 209-4885

   DOCUMENT TRAFFICKER CONVICTED OF MANUFACTURING, SELLING AND
       TRANSFERRING FRAUDULENT IDENTIFICATION DOCUMENTS

        Baltimore, Maryland - A federal jury convicted Victor Lopez Escamilla a/k/a “Mango
Chupado,”and “Ventura,” age 39, of Brooklyn, Maryland, today on charges of manufacturing,
selling and transferring fraudulent identification documents, including permanent resident cards
and social security cards. Escamilla is a Mexican national residing in the U.S. illegally.

       The verdict was announced by United States Attorney for the District of Maryland Rod J.
Rosenstein: Special Agent in Charge William Winter of U.S. Immigration and Customs
Enforcement (ICE) Homeland Security Investigations (HSI); Special Agent in Charge Michael
McGill of the Social Security Administration - Office of Inspector General, Philadelphia Field
Division; Special Agent in Charge John Schilling of the U.S. State Department Diplomatic
Security Service - Washington Field Office; and John Kuo, Administrator of the Maryland Motor
Vehicle Administration - Investigation and Security Services Division.

         According to court documents and testimony at Escamilla Lopez’s three day trial, from
July 2009, through the spring or summer of 2010, Escamilla Lopez was selling fraudulent
documents made by a group in the 200 block of South Broadway in Baltimore. Witnesses
testified that Escamilla Lopez solicited individuals in the Baltimore area to purchase fake
identification documents and Escamilla Lopez was observed and photographed receiving and
distributing fake identification documents. The evidence reflected that in the spring or summer of
2010, Escamilla Lopez began manufacturing documents himself in a “document mill” in his
bedroom. The evidence showed that Escamilla Lopez received photographs and personal
information from the individuals ordering the documents, which he then used to manufacture the
fraudulent documents. Evidence showed that Escamilla Lopez generally charged between $100
and $150 for a permanent resident and social security card, and at least $100 for a fraudulent
Maryland driver’s license.

         A search of Escamilla Lopez’s residence in Brooklyn, Maryland, on May 26, 2011,
recovered counterfeit documents, used ribbons showing documents that had been created, and
equipment and supplies used to make counterfeit documents. Over 100 exhibits were presented at
trial, including a Cheetos can with a fake bottom that contained numerous fraudulent
identification documents, which was recovered from Escamilla Lopez’s bedroom.
        Escamilla Lopez faces a maximum sentence of 15 years in prison for the transfer of false
identification documents; a maximum of 10 years in prison for fraud and misuse of immigration
documents; and a maximum of five years in prison for social security fraud. U.S. District Judge
William D. Quarles, Jr. has scheduled sentencing for March 21, 2012 at 1:00 p.m.

       United States Attorney Rod J. Rosenstein praised ICE Homeland Security Investigations;
the Social Security Administration - Office of Inspector General; the U.S. State Department
Diplomatic Security Service - Washington Field Office; the Maryland Motor Vehicle
Administration - Investigation and Security Services Division; and the Baltimore County and
Anne Arundel County Police Departments for their work in the investigation. Mr. Rosenstein
thanked Assistant United States Attorney Tamera L. Fine, who is prosecuting the case.
